NO.
«'

■

i. ■

IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM, 2020

IN RE: GREGORY LAMAR MATHIS
Petitioner

PETITION FOR AN EXTRAORDINARY WRIT TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
AT CINCINNATI, OHIO
No. 20-5262
TO; THE STATE ATTORNEY GENERAL OF TENNESSEE;

NOTIFICATION AND PROOF OF SERVICE
I, Gregory L. Mathis, petitioner, pro se, do swear or declare that on this
date of September \\, 2020 ,as required by Supreme Court Rule 29, that I have
served the enclosed Motion For Leave To Proceed in Forma Pauperis and
Petition for Extraordinary Writ - with Appendices - on each party to the above
proceeding, or the party’s counsel, and on every other person required to be
served by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first class postage
prepaid, or by delivery to a third party commercial carrier for delivery within 3
calendar days, who will be as follows;
Herbert H. Slatery, III
Attorney General & Reporter
301,6th Ave. North, P.O. Box 20207
Nashville, Tennessee. 37202-020
I declare under penalty of perjury that the foregoing is true and correct,
and executed on this ll day of
72020.
7
u, QcTftf

GregorftL. Mathis, petitioner, pro se

